(Ti) °
IN THE
SUPREME COURT OF THE UNITED STATES

Mr. Antonio Sierra, Ph.D. -Pro Se PETITIONER
VS.
COMMONWEALTH OF PENNSYLVANIA, et al -RESPONDENTS

ON PETITION FOR WRIT OF CERTIORARI TO

FILED
JAN 0 4 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF PENNSYLVANIA

PETITION FOR WRIT OF CERTIORARI

, Ph.D., Pro—Se
Antonio Sierra, ID# DV-0686
10745 State Route 18
Albion, PA 16475

QUESTION PRESENTED
Whether petitioner sufficiently asserted federal rights in the case being heard by
state courts who defeated by rules of court, in error, petitioner’s case and sanctioned
respondents’ unreasonable seizure of evidence?
Suggested Response: Before the Court

70

n

LIST OF PARTIES

Mr. Josh Shapiro, Attorney General of the Commonwealth of Pennsylvania. His
office is in the Department of Justice, 16th Floor, Strawberry Square, Harrisburg,
PA 17120
Mr. Samuel A. Kline is an Associate Judge of the Court of Common Pleas Lebanon
County, Pennsylvania. His office is in the Court of Common Pleas, 400 South 8th
Street, Lebanon, PA 17042
Mr. Jack Daneri is the District Attorney of Erie County Pennsylvania. His office is
in the Erie County Courthouse, 140 West 6th Street, Room 506, Erie, PA 16501
Mr. Michael Clark is the Superintendent of SCI -Albion. His office is in SCI Albion, 10745 State Route 18, Albion, PA 1475
Ms. Tammy White is the Mailroom Supervisor of SCI -Albion. Her office is in SCI Albion, 10745 State Route 18, Albion, PA 16475

m

TABLE OF CONTENTS
n.

QUESTION PRESENTED

in.

LIST OF PARTIES

IV.

TABLE OF CONTENTS

v.

TABLE OF CITATIONS

vi.

TABLE OF CITATIONS (NOTABLE AUTHORITIES)

vii. STATEMENT OF THE FACTS AND PROCEDURAL HISTORY

pgs. 1-7

1.

OPINION BELOW

Pg- 1

2.

JURISDICTION

Pg- 2

3.

CONSTITUTIONAL PROVISION

Pg- 2

4.

STATEMENT OF THE CASE

Pgs. 2-3

5.

ARGUMENT

Pg- 3

6.

A.

INTRODUCTION

Pg- 3

B.

JURISDICTIONAL REQUIREMENT TO PROCEED

pg. 4

C.

TIMELINESS ON GOVERNMENT INTERFERENCE

Pg- 4

D.

TIMELINESS ILLEGAL INCARCERATION

pgs. 5-6

E.

STATE COURT ERROR IN DETERMINATION

Pg- 7

F.

COMPLIANCE WITH RULES OF COURT

pgs.7-10

G.

FOURTH AMENDMENT

pg.10-11

CONCLUSION

Pg- U

CERTIFICATE OF SERVICE
IV

TABLE OF CITATIONS
Armstrong v Manzo, 380 US 548, 65 S. Ct. 1187 (1965)

Pg- 6

Bartone v United States, 375 US 52, 84 S. Ct. 21 (1963)

pg- 10

Blakely v Washington, 542 US 296, 124 S. Ct. 2531 (2004)

pg. 6

Bond v United States, 564 US 211, 131 S. Ct. 2355 (2011) (per curiam)

Pg- 5

Brown v Western Railway of Alabama, 338 US 294, 94 L. Ed 100 (1949)

pgs. 2, 10

Commonwealth v Albrecht, 994 A. 2d 1091 (Pa. 2010)

pg. 4

Commonwealth v Blakeny, 193 A. 3d 350 (Pa. 2018)

Pg- 5

Dye v Hofbauer, 126 S. Ct. 5, L. Ed._2d 1(2005)

pg. 11

Joseph v Glunt, 96 A. 3d 365 (Pa. Super. 2013)

Pg- 5

Lawrence on behalf of Lawrence v Chater,

Pg- U

516 US 163, 116 S. Ct. 604 (1996) (per curiam)
Paul v Davis, 424 US 693, 96 S. Ct. 155 (1976)

Pg- 5

Pruett v Levi, 622 F.2d 256 (6 Cir. 1980)

Pg- 5

Ross v Blake, 136 S. Ct. 1850, 195 L. Ed. 2d 117 (2016)

Pg- 5

Sodal v Cook County, 506 US 56, 113 S. Ct. 538 (1992)

pg.10

United States v Place, 462 US 696, 103 S. Ct. 2637 (1983)

pg- 10

v

NOTABLE AUTHORITIES
42 Pa. C.S. Section 9545
Penna. Rules of Appellate Procedure
Rule 2101
2116
2119

vi

STATEMENT OF FACTS AND PROCEDURAL HISTORY
(A) - 1998 to 2000
Antonio Sierra, a resident Of the State of New York, city of the Bronx, who
has been incarcerated since 1997. As petitioner without benefit of counsel, he has
been serving a State sentence of 34 to 64 years for the alleged crime of Attempt
Third Degree Murder, for three men in Pennsylvania, allegedly committed when
petitioner was 21 years of age.
Petitioner pleaded not guilty to the original charge—Criminal Attempt to
Commit Criminal Homicide (or “Attempt Murder”) brought by Commonwealth
Prosecutors Mr. Charles and Mr. Arnold. On September 8-11, 1998, a jury trial
began in the Court of Common Pleas Lebanon County before Judge Samuel A
Kline.
Prior to the conclusion of trial, Judge Kline convened with both prosecutors
and Public Defenders Mr. Kelsey, Mr. Wynne, and Mr. Jones to address the
constitutionality of the State’s main charge “Attempt Murder,” in which Counsel
Kelsey objected to the existence of the charge, stating “it did not exist,” and wanted
something on the record. This appears as Appendix App. G.2-4.
In response, prosecutors did not agree with either Judge Kline and Kelsey’s
assessment of the charge as they understood it, and instead, the Prosecutors
proposed a jury instruction for the charge Attempt Third Degree Murder, Id. App.
G.4-5.
1

Judge Kline subsequently agreed with the prosecutors on the new charge,
requesting that counsel Wynne stipulate which he did not; Meanwhile, counsel
Kelsey began to change the charge on the information to call for Attempt Third
Degree Murder, instead of Attempt Murder; Id. App. G.5-6.
Judge Kline then gave the jury the erroneous charge in Attempt Third
Degree Murder, and the jury pronounced petitioner guilty in 1998. Id.
The Pennsylvania Superior Court issued an Order on October 13, 1999
dismissing counsel Wynne’s appeal due to his failure to fide a brief, No. Ill MDA
1999. Nevertheless, that matter became immaterial after Judge Kline took the
liberty as trial court judge to place “Attempt Murder” back on the record in his
Opinion to the Superior Court, Id. App. G.8.
On February 16, 2000, petitioner filed his first Post Collateral Relief Act
petition (PCRA), and the trial court allowed an appeal nunc pro tunc to be filed with
Public Defender Mr. Buchiano. Prosecutor Arnold filed his brief on November 21,
2000 after Mr. Buchiano’s Anders Brief was filed on October 25, 2000 asking for
leave to withdraw as counsel as “he did not know of any case law which would
provide the relief ...justify or support any complaint that [petitioner] might have as
to the ...information brought by the Commonwealth.” See, Pa. Super. 1409 MDA
2000 at Anders Brief, pg.6.

2

On May 2, 2001, the Superior Court denied petitioner’s motion for relief; Yet
again, after Judge Kline entered his Opinion on August 10, 2000 stating petitioner
was convicted of “Attempt Murder;” Id. App. G.9-10.
During this time while represented by counsel, petitioner was unaware of
Judge Kline’s Opinions or that he revived the Attempt Murder charge and took
away the Attempt Third Degree Murder charge as the Superior Court did not
indicate a problem with the jury charge when Ordering a Pennsylvania Rules of
Appellate Procedure, “Pa.RAP. 1925 (b) Order to be filed, as addressed in the
Superior Courts Order of March 20, 2020 appearing in this petition as App. B. 1-10.
(B) - 2004 to 2008
In March 2004, petitioner filed a Motion to Vacate and Set Aside Illegal
Sentence and/or for Writ of Habeas Corpus. The trial court denied the motion as
untimely and an appeal was filed with the Superior Court, No. 593 MDA 2004.
On August 2, 2004 Prosecutor Jennifer Gettle filed an Appellate Brief
denying all of petitioner’s claims while conceding for the first time that (the
Commonwealth does not have a charge as “Third Degree, Attempt Murder,” Id. App.
G.ll. Yet, after making this concession she went on to argue counsel’s effectiveness
to deny review which the Superior Court denied in October of 2004. Petitioner
appealed to the Pennsylvania Supreme Court seeking Allowance of Appeal and the
Court denied review in April 2005. Petitioner filed his Writ of Habeas Corpus in
2005 to the United States District Court for the Middle District, No. 3-cv-06-0604.

3

On or about June 2, 2005 Prosecutor John Ditzler issued a Memorandum In
Response to Petitioner’s Writ of Habeas Corpus, where he denied petitioner’s claims
in part, while conceding that "petitioner argues correct, that the Commonwealth
does not have a Statute for what he has been convicted of; Id. App. G.12. Mr.
Ditzler then misrepresented petitioners’ actions during the 1998 trial and induced
the court for a favorable decision. Id. The District Court dismissed the Writ on
July 18, 2006, adjudicating the Writ on the merits. An appeal was then issued to
the United States Court of Appeals for the Third Circuit, that affirmed the District
Court on January 25, 2007 finding no equitable tolling applies; Id. No. 06-3750; And
a Petition for Reconsideration was also denied on April 18, 2007. Id.
On August 27, 2007 petitioner appealed to the Supreme Court of the United
States seeking Writ of Certiorari. On October 17, 2007 the petition was placed on
the Court’s Docket; Yet was denied on January 7, 2008; Id. No. 07-7084.
(C) - OTHER ACTIONS
Following the above denials petitioner returned back to his deprivation in
2008, 2013, 2016, and 2019 receiving the same treatment in numerous judiciary and
administrative agencies like the Department of Corrections, (PA DOC) and the
Federal Judiciary, yet petitioner does not know of the conclusion to these later
actions as the State has begun to confiscate privileged correspondence during this
time, causing prejudice. An excerpt of the Procedural History as expressed above is
provided to this petition as Attachment App. H.l—16.

4

(D) - 2020
On September 25, 2019, petitioner filed a PCRA motion in the Trial Court of
Common Pleas - Erie County, Id. No. 12719-2019. This filing was 15 days after
Respondents, PA DOC, injured petitioner: causing prejudice. Respondents were
named as they reside in Albion. This appears to this petition as Appendix App.
F.l—13.
Respondents were given a request form as a Release of Correspondence
Notice on September 11, 17, and 19 of 2019, after Respondents unreasonably seized
petitioner’s Incoming Privileged Correspondence “mail” and misrepresented the
matter, Id. Add. G.13.
Respondents Superintendent Clark and Mail Supervisor Ms. Tammy White
issued a reply on September 26th and 27th, 2019 that was misleading;
Misrepresenting the issue (a) demanding the return of mail to send or destroy and
(b) no idea of what is being stated; Violating petitioners Fourth and Fourteenth
Amendment Rights to the Constitution of the United States: App. G.26—27.
Trial Court Erie issued an Opinion dismissing the action, the Informa
Pauperis motion, and warned of sanctions for relief against Lebanon in Erie
County; Yet were silent about their jurisdiction. This Opinion appears to this
petition as App. C.l.
On October 28, 2019 petitioner appealed to the Superior Court; In appellant’s
brief submitted on January 16, 2020 with the reproduced record petitioner argued
5

the unreasonable Opinion of the trial court in denying the action and motion
depriving petitioner access to court, No. 1647 WDA 2019, App. E.l—5. In
addressing the question presented petitioner separated the issues to address the
trial courts errors in wrongfully endorsing subsequent action in 2016-2017
litigation, Id. App. E.12—15: And, proceeded to address the claims under
Commonwealth v Albright, Sodal v Cook County, and Bond v United States (inter
aha); Id. App. E.6—11, 15—27.
On March 20, 2020, the Superior Court entered an Opinion that denied
petitioner’s case, stating petitioner’s brief fell below the minimum standards
delineated by the Pa. R.A.P. and that he cites irrelevant case law. This Opinion
appears to this petition as Appendix B.l—10.
On May 1, 2020, petitioner appealed to the Supreme Court of Pennsylvania
for Allowance of Appeal, Id. No. 153 WAL 2020. Petitioner raised the same
questions presented in the lower courts where the trial court and Superior Court
decided this case not in accordance with the decision of the Supreme Court of the
United States. This appears to this petition as App. D.l—4.
On May 28, 2020, Respondents filed a letter to the Court not to file an answer
to the Petition for Allowance of Appeal, agreeing with the Superior Court and
stating that no relief should be granted. This appears to this petition as App. G.30.
On October 6, 2020, the Supreme Court denied petitioner’s appeal; This
decision appears to this petition as Appendix A.01.

6

At all times relevant to this case Respondents have not contested petitioner’s
claims. Petitioner respectfully files the instant petition for Writ of Certiorari,
praying this Court may Grant this petition, Vacate the decisions and Remand for
review on the critical issue at bar, with all due respect.

7

Al. OPINION BELOW
FOR CASES FROM STATE COURT:
The Opinion of the Pennsylvania Supreme Court to review the merits of this
case is designated for publication, may be reported, and appears to this petition as
Appendix App. A.01.
The Opinion of the Pennsylvania Superior Court reviewing the merits of this
case is designated for publication, may be reported, and appears to this petition as
Appendix App. B.l - B.10.
The Opinion of the Pennsylvania Court of Common Pleas - Erie, reviewing
the merits of this case designated for publication, may be reported, and appears to
this petition as Appendix App.C.l - C.12.
The decision of the Supreme Court of Pennsylvania on the question presented
is in Petitioner’s Petition For Allowance of Appeal, appearing to this petition as
Appendix App. D, 1 — 4.
The decision of the Superior Court of Pennsylvania on the question presented
is in Petitioner’s Appellate Brief, appearing to this petition as Appendix App. E. 1 27.

The decision of the Pennsylvania Court of Common Pleas - Erie on the
question presented may fairly appear in Petitioner’s Motion for Post-Conviction
Collateral Relief, appearing to this petition as Appendix App. F (F. 1 - F.7).
The Evidence as presented to the State Court appears to this petition as
Appendix App. G. 1 - G. 30.
An account of the events in 2013 to 2019 appears in this petition as Appendix
App. H.l - H. 19.

1

2.

JURISDICTION
The Supreme Court of the United States has jurisdiction of this case pursuant to

28 U.S.C. S 1257 (a): Brown v Western Railway of Alabama. 338 U.S. 294 (1949).
3.

CONSTITUTIONAL PROVISION
The Fourth Amendment to the United States Constitution provides in pertinent

parts that “The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable search and seizure, shall not be violated, ...”
The Fourteenth Amendment to the United States Constitution provides in
pertinent parts that “No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without the due process of law; ...”
4.

STATEMENT OF THE CASE
Petitioner avers that this case addresses the Fourth and Fourteenth

Amendments to the Constitution of the United States, yet places the Federal
Constitution at odds with the Opinion of the State Courts of Pennsylvania, when
petitioner followed the rules of court, yet, the appellate court deprived itself of
jurisdiction to dismiss the case and deprived petitioner his privileged
correspondence, when every court had jurisdiction to hear the case under the State
Post Conviction Relief Act (PCRA), and government interference exception pursuant
to Albrecht, where all petitioner was required to show was when and how
Respondents interfered with petitioners mail to become unreasonable under the
Constitution of the United States, and show how and why petitioner’s

2

“incarceration” is illegal in order for the State Court to have jurisdiction; Two
material prongs petitioner met.
Respondents’ issued an Opinion stating they would not file a response, clearly
aware that the State Courts Opinion was an obstacle that petitioner could not
account for. In this regard Respondents agreed with the Courts determination,
although the error was clearly placed in the Courts Order.
Petitioner was charged with not following the Rules of Appellate Procedure in
error and had the case dismissed and issues waived, causing substantial prejudice
as these opinions give Respondents a cover to continue to seize petitioner’s mail
irrespective of whom submits them—whether lawyers or court personnel.
Petitioner prays this Court show mercy and grant the petition, vacating the
order and remand the case, as it is within this Courts powers to do, with all due
respect.
5.

ARUGMENT
A. INTRODUCTION
This case places the Fourth Amendment to the Constitution of the United States

and Federal law at odds with the Opinion of the State Court of Pennsylvania, when
petitioner followed the rules of court; Yet the appellate court denied jurisdiction to
dismiss the cause of action and deprive petitioner his privileged mail;
Notwithstanding Respondents’ contention to the contrary, Id. G.30.

3

B. JURISDICTIONAL REQUIREMENT TO PROCEED
Prior to the merits, petitioner had to satisfy the timeliness of the PCRA under
State law, alleged to be “separate and distinct from the merits,” Commonwealth v
Albrecht. 994 A. 2d 1091, 1093 (Pa. 2010).
Petitioner’s two criteria were: 1) fide the petition within 60 days of when the
petition could have been presented, Id. 1094 (citing 42 Pa. C.S. S 9545 (b) (2)); and
2) “show” any of the conditions of his incarceration were illegal as required to meet
the government interference exception to PCRA timeliness requirement. Id. 1095
(citing 42 Pa. C.S. S 9545 (b) (1) (i) (government interference must violate United
States or Pennsylvania Constitution or laws)).
C. TIMELINESS ON GOVERNMENT INTERFERENCE
Respondents’ decided to notify petitioner his addressed privileged mail was not
going to be delivered, rather, disposed of and petitioner was required to sign for the
disposition of mail issued by lawyers, State and Federal Court personnel, Id.
App. G.20-27. Petitioner’s mailings have been in the possession of the State
government for a year (and from 2018, i.e., App. E.10). dated for August 29th and
30th of 2019, as the given date of issuing the mails notice; Yet Respondents
purposely held the notices until released on September 10th, 2020, Id. App. E.6-8.
Petitioner then decided to file an action against State government after he gave,
Respondents the chance to release his mail on September 11, 17, and 19 of 2019;
providing notice to release and awareness of the cause that would follow if mail was
not released by September 23, 2019. Yet Respondents’ did not file a timely

4

response, rather issued a reply that was false, misleading, and contradicted the
other on September 26 and 27, of 2019, after petitioner filed the PCRA, making the
decision of the proper course not requiring filing grievances as this would prejudice
petitioner “in a process aimed at tripping him up.” Id. App. E. 9-11. (citing Ross v.
Blake. 136 S. Ct. 1850 (2016)).
Petitioner was then made aware of mailings being unreasonable confiscated by
the government on September 10, 2019. Petitioner filed the PCRA on September
25, 2019, well within the time the facts were based; Or “which the claim is
predicated were unknown and could not have been ascertained by the exercise of
due diligence.” Id. App. E.ll (citing Commonwealth v Blakeny. 193 A. 3d 350, 361
(Pa. 2018)).
D. TIMELINESS ILLEGAL INCARCERATION
Petitioner addressed illegal incarceration by showing: (1) there is no court Order
authorizing restrain, violating petitioner’s rights and 28 USC S 2241 © (3)
particularly when State government concedes there is no Sentencing and no
Commitment Orders in existence, becoming determinative evidence; Id. App. E, 1516. (citing Pruett v. Levi. 622 F. 2d 256 (6th Cir. 1980), Paul v. Davis. 424 U.S. 693
(1976), and Joseph v. Glunt. 96 A. 3d 365 (Pa. Super 2013)).
Secondly, petitioner showed there is no statute for the charge Attempt Third
Degree Murder, Id. App. E, 16 (citing Bond v. United States. 564 US 211, 226 (2011)
(Concurring Opinion)). In this regard, government officers and officials concede

5

that petitioner is imprisoned on a charge that does not have a Statute and therefore
renders petitioner’s incarceration illegal and void, Id. App. E. 19-27.
Third and final, petitioner showed discrepancy between Trial Transcripts and Trial
Courts Order of petitioner’s charge for sentence and imprisonment when in 1998,
the original charge in Attempt Murder was stricken off the information at the
request of State Prosecutors to call for Attempt Third Degree Murder, the charge
given to the Jury, Id. App G.4-5 There was no lawful reason to have two prejudicial
Court Opinions purporting to be Orders reflecting petitioner’s incarceration for
Attempt Murder when the government passed upon this charge, and petitioner was
not tried for that charge, Id. App. E. 17-18. (citing Blakely v Washington. 542 US
296 (2004) and Armstrong v Manzo. 380 US 548 (1965)).
In petitioner’s case, he was timely in claiming the State government unlawfully
seized his privileged mail and wanted petitioner to dispose of it causing substantial
injury to petitioner and litigation, in violation of his Fourth and Fourteenth
Amendment rights, Id. App. E.l-2. As petitioner was lawfully aware of
Respondents receipt of mail through the notices issued on September 10, 2019,
petitioner brought the case to the court’s attention on time, and could not have
learned about it any earlier despite the exercise of due diligence, Albrecht. 994 A. 2d
@ 1094-95; And, where petitioner can establish these two prongs, then the trial
court has “jurisdiction over the claim,” Blakenv. 193 A. 3d @ 361.

6

E. STATE COURT ERROR IN DETERMINATION
In petitioner’s case the Supreme Court denied Allowance of Appeal with no
opinion, Id. App. A.1: And the Superior Court strained credulity by stating
petitioner submits “irrelevant citation (sic) to relevant legal authority as they relate
to the facts of this case...precludes us from conducting meaningful review;” Id. App.
B.8-10: Affirming the Trial Court’s denial, and contrary to due process of law.
Petitioner respectfully disagrees.
F. COMPLIANCE WITH RULES OF COURT
The Superior Court stated petitioner failed to follow Pennsylvania Rules of
Appellate Procedure, “PA. R.A.P.” No. 2101 and 2116, Id. App. B. 8-9. Pa. R.A.P.
2101 states in pertinent relevance 'briefs and reproduced records shall conform in
all material respects with the requirements of these rules as nearly as the
circumstance of the particular case will admit,

Here, the rule leaves room for

other consideration in addition to compliance when the “circumstances of the
particular case will admit, “such as, addressing the Territorial-Custodial Rule when
the Court has to decide the jurisdiction in compliance with Federal law; The
Superior Court noted as much when it stated: “[E]ven had Appellant filed the
instant PCRA petition in the proper lower court, as noted supra, ...” Id. App. B.7. If
this contention is well taken, it was error to state, “Appellants brief is rambling and
nearly unintelligible.” Id. @ 9.
Pa. R.A.P. 2116(a) states in pertinent parts that “Each question shall be
followed by an answer stating simply whether the court agreed, disagreed, did not

7

answer or did not address the question.” Petitioner did not present answers to
question as trial court dismissed the case on IFP-motion and did not address the
substance of petitioners claims. Yet, even if the trial court considered the case,
sufficient to indicate a “Qualified answer;” Petitioner would be forced an additional
showing of “the reason for such failure,” and he was not adequately informed to
make such a determination from the trial courts perspective, particularly when the
trial court wrongfully advanced an issue that had no bearing on the present issue of
government interference. See, App. B.l. and compare Id. App. H.2-3 (addressing
2016 term of litigation).
Finally, the Superior Court cites to Rule 2119; Yet, that rule does not support
the work product placed at issue. In petitioner’s brief, he divided the argument to
16 parts to the four questions; Each part addressing law believed to be relevant; For
instance: 1) Petitioner opened his brief discussing Constitutional law, then
addressed the trial courts error in dismissing PCRA and In Forma Pauperis ‘IFPmotion” in the 2) “Access To The Court Affected By Improper Denial,” as trial court
refused to take any interest on the affidavits in support of the motion, income
source, employment, assets and debts, to rather, deny the action on matters
occurring or explain what the actual issue was at the time, Id. App. E.l-5.
In addressing timeliness issues and government interference as stated above,
this part was captioned 3) “The Cause Is Timely Assuming the Facts are Ripe, “Id.
App. E.6-10; And, on the second question about 2016 term, petitioner again opened

8

discussion from the caption 4) “Initial 2019 -Unreasonable Seizure to then address
the caption: 5) “Subsequent 2016-2017 Action, Id. App. E.ll-14.
On the third question, petitioner addressed government interference showing
an illegal incarceration caption 6) “Prejudicial Erroneous Information,” and matters
to the 1998 records as 7) “Trial Courts Action,” leading to the caption 8)
“Commonwealth Concedes to Appellants Claims.” Here, petitioner addressed 9)
“Appellants Alleged Charge, 10) The No Longer Covered Charge, and 11) Intent vs.
Malice, “as distinctive to the particular points discussed. Id. E. 15-27.
Moreover, petitioner addressed deficient denial of counsel in 2000, by the
caption 12) “Deficient Counsel, “addressed 13) “Defendants Modification” (where
Commonwealth was obligated to petition for modification where there is no
Sentencing Order) and 14) “Territorial—Custodial Rules” (where petitioner had the
right to argue why Lebanon County lost jurisdiction under Federal law). See,
Appellant Brief of January 16,2020 at pp. 46-51.
Finally, on the last question, petitioner did not present a caption as the issue
and injury was personal, where review continues to be deprived, Id. pp. 52-53;
Manzo. 380 US @ 552 (stating the opportunity to be heard as fundamental).
The Appellate Rules also state in pertinent relevance that the “argument
shall be divided into as many parts as there are questions to be argued; and shall
have at the head of each part-in distinctive type—the particular point treated
therein, followed by such discussion and citation of authorities as are deemed
pertinent.” Pa. R.A.P. 2119(a).

9

In this case, the Appellate Court erred in dismissing petitioner’s case as he
did comply with the rules, and the court’s Opinion is contrary to Federal law.
In 1949, this Court in Brown v. Western Railway of Alabama, stated that
“strict local rules of pleadings cannot be used to impose unnecessary burdens upon
the rights of recovery authorized by Federal law. “Whatever springs the State may
set for those who are endeavoring to assert rights that the State confers, the
assertion of federal rights, when plainly and reasonably made, is not to be defeated
under the name of local practice;” 338 US 294, 298, (citation omitted). This is still
good law.
As the State courts made a decision that was unfair and caused prejudice,
petitioner is injured and his Fourth and Fourteenth Amendment Rights violated as
the courts place an unreasonable obstacle before this petitioner simply trying to
retrieve his mail and fairly litigate his claims, Bartone, 375 US 52, 54 (1963).
G. FOURTH AMENDMENT
In Sodal v. Cook Countv. this Court held that the facts alleged suffice to
constitute a seizure within the meaning of the Fourth Amendment for they plainly
implicate the interest protected by that provision. Id. 506 U.S. 56, 72 (1992). In so
holding, this court further supported its holding by looking to United States v.
Place. 462 US 696 (1983), holding that “the police conduct exceeded the bounds of
permissible investigative detention of the luggage.” Id. 63 (quoting Place, 462 US @
703).

10

In this case, Respondents do not object to the seizure of petitioner’s mails,
although they have to agree it’s privileged correspondence and simply agree that
the State courts ruled fairly as this was in their favor, Id. App. G.30: Yet, as shown
herein the Courts did not rule fairly, rather set an obstacle to defeat the claims that
had nothing to do with the rules of court and petitioner respectfully ask this court to
please view for itself whether petitioner did comply with the rules; And in so doing,
respectfully request that this court grant this petition as the state courts erred in
their determination and failed to address the Federal claims; And “failure of State
Appellate Court to mention a federal claim does not mean that the claim was not
presented to it.” Dve v. Hofbauer, 126 S. Ct. 5, 6 (2005).
6. CONCLUSION
Petitioner respectfully request this Court please grant the petition; Vacate
the decision of the State Courts and Remand the case to properly receive due
process of law. This Court has broad powers to GVR; Lawrence on behalf of
Lawrence v. Chafer. 516 US 163, 166 (1996) (per curiam) (Holding [W]e have the
power to issue a GVR Order, and that such an order is an appropriate exercise of
our discretionary certiorari jurisdiction).

Sincerely,
Ph.D. -Pro Se Inmate
Antonio Sierra, Pa. ID# DV-0686

11

